No.

 

In the Supreme Court of the United States

MICHAEL PATRICK LATHIGEE,
Petitioner,
Vv.

BRITISH COLUMBIA SECURITIES COMMISSION
Respondent.

AFFIDAVIT OF SERVICE
Thereby certify that on August 5, 2021, as required by Supreme Court Rule 29
I served the enclosed PETITION FOR A WRIT OF CERTIORARI on each party
to the above proceeding or that party’s counsel, and on every other person required

to be served.

The names and addresses of those served are as follows:

 

 

John M. Naylor Kurt R. Bonds

Jennifer L. Braster Matthew M. Pruitt

NAYLOR & BRASTER ALVERSON TAYLOR & SANDERS

1050 Indigo Drive, Suite 200 6605 Grand Montecito Parkway, Suite 200

Las Vegas, Nevada 89145 Las Vegas, Nevada 89149
The following email addresses have also been served electronically:
jnaylor@naylorandbrasterlaw.com kbonds@alversontaylor.com
jbraster@naylorandbrasterlaw.com mpruitt@alversontaylor.com

Anna Gresl

Claggett & Sykes Law Firm

Shate of Nevada
Comty ob Clave
Sworn to and subscribed before me this_s_ day of Parser — 2021.

 
      

    
  

a ALONDRA J, PEREZ
ASO Notary Public-State of Nevada
APPT. NO, 20-6198-01

My Appt. Expires 08-17-2024
